                    STATEMENT FOR THE RECORD OF
                          DR. CHRISTINE BOESZ
                          INSPECTOR GENERAL
                     NATIONAL SCIENCE FOUNDATION
                                before the
                               U.S. SENATE
                    COMMITTEE ON APPROPRIATIONS
           SUBCOMMITTEE ON VA, HUD, AND INDEPENDENT AGENCIES
                            February 26, 2004


       Chairman Bond, Senator Mikulski, and distinguished members of the
Subcommittee, I am Dr. Christine Boesz, Inspector General at the National Science
Foundation (NSF). I appreciate the opportunity to present to you information as you
consider NSF’s fiscal year 2005 budget request. NSF’s work over the past fifty-four
years has had an extraordinary impact on scientific and engineering knowledge, laying
the groundwork for technological advances that have shaped our society and fostered
the progress needed to secure the Nation’s future. Throughout, NSF has maintained a
high level of innovation and dedication to American leadership in the discovery and
development of new technologies across the frontiers of science and engineering.

        Over the past few decades, however, the nature of the scientific enterprise has
changed. Consequently, NSF is faced with new challenges to maintaining its leadership
position. My office has and will continue to work closely with NSF management to
identify and address issues that are important to the success of the National Science
Board and NSF. Last year, I testified before this Subcommittee on the most significant
issues that pose the greatest challenges for NSF management. This year, you have
asked me to provide an update, from my perspective as Inspector General, on the
progress being made at NSF to address three of these challenges.


              MANAGEMENT OF LARGE INFRASTRUCTURE PROJECTS

     Throughout my tenure as Inspector General of NSF, we have considered
management of large facility and infrastructure projects to be one of NSF’s top
management challenges. 1 As you know, NSF has been increasing its investment in

1
 Memorandum from Christine C. Boesz, Inspector General, National Science Foundation, to Warren
Washington, Chairman, National Science Board, and Rita R. Colwell, Director, National Science
Foundation (Oct. 17, 2003) [hereinafter 2003 Management Challenges]; Memorandum from Christine C.
Boesz, Inspector General, National Science Foundation, to Warren Washington, Chairman, National
Science Board, and Rita R. Colwell, Director, National Science Foundation (Dec. 23, 2002) [hereinafter
2002 Management Challenges]; Memorandum from Christine C. Boesz, Inspector General, National
Science Foundation, to Eamon M. Kelly, Chairman, National Science Board, and Rita R. Colwell, Director,
National Science Foundation (Jan. 30, 2002) [hereinafter 2001 Management Challenges]; Letter from
Christine C. Boesz, Inspector General, National Science Foundation, to Senator Fred Thompson,
Chairman, Senate Committee on Governmental Affairs (Nov. 30, 2000) [hereinafter 2000 Management
Challenges].
large infrastructure projects such as accelerators, telescopes, research vessels and
aircraft, supercomputers, digital libraries, and earthquake simulators. Many of these
projects are large in scale, require complex instrumentation, and involve partnerships
with other Federal agencies, international science organizations, and foreign
governments. Some, such as the new South Pole Station, present additional
challenges because they are located in harsh and remote environments.

         As I testified last year, 2 the management of these awards is inherently different
from the bulk of awards that NSF makes. While oversight of the construction and
management of these large facility projects and programs must always be sensitive to
the scientific endeavor, it also requires a different management approach. It requires
disciplined project management including close attention to meeting deadlines and
budget, and working hand-in-hand with scientists, engineers, project managers, and
financial analysts. Although NSF does not directly operate or manage these facilities, it
is NSF that is ultimately responsible and accountable for their success. Consequently,
it is vital that NSF, through disciplined project management, exercise proper
stewardship over the public funds invested in these large projects.

         In fiscal years (FYs) 2001 and 2002, my office issued two audit reports on large
facilities with findings and recommendations aimed at improving NSF’s management of
these projects. 3 Primarily, our recommendations were aimed at (1) increasing NSF’s
level of oversight of these projects with particular attention on updating and developing
policies and procedures to assist NSF managers in project administration, and (2)
ensuring that accurate and complete information on the total costs of major research
equipment and facilities is available to decision makers, including the National Science
Board, which is responsible for not only approving the funding for these large projects,
but also setting the relative priorities for their funding. NSF responded that it would
combine its efforts to respond to the recommendations made in these separate audit
reports.

         During the past year, NSF has made gradual progress towards completing the
corrective action plans and has taken steps to address approximately half of the report
recommendations. In June 2003, NSF took an important step when it hired a new
Deputy Director for Large Facility Projects, and in July the agency issued a Facilities
Management and Oversight Guide. 4 NSF has also begun to offer Project Management
Certificate Programs through the NSF Academy to help program officers improve their
skills in managing large facility projects.


2
  Statement of Dr. Christine Boesz, Inspector General, National Science Foundation, before the U.S.
Senate, Committee on Appropriations, Subcommittee on VA, HUD, and Independent Agencies (Apr. 3,
2003).
3
  OFFICE OF INSPECTOR GENERAL, NATIONAL SCIENCE FOUNDATION, AUDIT OF THE FINANCIAL MANAGEMENT OF
THE GEMINI PROJECT, Report No. 01-2001 (Dec. 15, 2000); OFFICE OF INSPECTOR GENERAL, NATIONAL
SCIENCE FOUNDATION, AUDIT OF FUNDING FOR MAJOR RESEARCH EQUIPMENT AND FACILITIES, Report No. 02-
2007 (May 1, 2002).
4
  NATIONAL SCIENCE FOUNDATION, FACILITIES MANAGEMENT AND OVERSIGHT GUIDE (July 2003)
<http://www.nsf.gov/pubsys/ods/getpub.cfm?nsf03049>.


                                                 2
        However, key recommendations from both of these reports on developing new
project and financial management policies and procedures remain unresolved by NSF
management. Although NSF has issued a Facilities Management and Oversight Guide,
this Guide does not provide the detail necessary to provide practical guidance to staff
that perform the day-to-day work, nor does it address the problem of recording and
tracking the full cost of large facility projects. A systematic process for reporting and
tracking both the operational milestones and the associated financial transactions that
occur during a project’s lifecycle, particularly those pertaining to changes in scope, is
still needed. Finally, staff involved with large facility projects need to be trained on the
revised policies and procedures that affect funding, accounting, and monitoring. NSF
plans to address these outstanding audit recommendations by providing several
additional modules to its Facilities Management and Oversight Guide that will address
various topics such as risk management and financial accounting. My office was
recently provided with drafts of two of these modules and is currently reviewing them to
provide feedback to the Deputy Director for Large Facility Projects.

        While I am pleased to see that NSF is continuing to make progress toward
addressing this important management challenge, I remain concerned with the level of
attention afforded this issue by senior NSF management. The responsibility for
continuing to make progress in this area has fallen to the Deputy Director for Large
Facility Projects who may not have been afforded the necessary resources to complete
the detailed modules to the Facilities Management and Oversight Guide in a timely
manner. Currently, the Deputy needs additional staff to assist with completing these
numerous and detailed modules. Also, a system to identify and account for life-cycle
costs is needed to support management, as well as the prioritization of projects.


                               AWARD ADMINISTRATION

        In addition to its management of some of its very large awards, another ongoing
management challenge at NSF involves general administration of all of its research and
education grants and cooperative agreements. 5 While NSF has a proven system for
administering its peer review and award disbursement responsibilities, it still lacks a
comprehensive, risk-based program for monitoring its grants and cooperative
agreements once the money has been awarded. As a result, there is little assurance
that NSF award funds are accurately protected from fraud, waste, abuse, and
mismanagement. Recent audits conducted by my office of high-risk awardees, such as
foreign organizations and recipients of Urban Systemic Initiative (USI) awards, confirm
that in the absence of an effective post-award monitoring program, problems with
certain types of grants tend to recur.

      In a given year, NSF spends roughly ninety percent of its appropriated funds on
awards for research and education activities. In FY 2003, NSF reviewed 40,075


5
 2003 Management Challenges; 2002 Management Challenges; 2001 Management Challenges; 2000
Management Challenges, supra note 1.


                                             3
proposals – an increase of 14% over FY 2002 – in order to fund 10,844 awards. 6 Given
the amount of work required to process an award, NSF is challenged to monitor its
$18.7 billion award portfolio (including all active multi-year awards) for both scientific
and educational accomplishment and financial compliance. During the past three years,
weaknesses in NSF’s internal controls over the financial, administrative, and
compliance aspects of post-award management were cited as a reportable condition in
the audits of NSF’s financial statements. 7 What this means is that the bulk of staff effort
is placed on moving funds out the door with little attention paid to how those funds are
used.

        NSF has recognized the need to create a risk-based award-monitoring program
and has begun to address this issue. The agency has developed a Risk Assessment
and Award Monitoring Guide that includes post-award monitoring policies and
procedures, a systematic risk assessment process for classifying high-risk grantees,
and various grantee analysis techniques. During the past year, NSF has made some
progress towards fully addressing this management challenge and responding to audit
recommendations. For instance, NSF issued the Award Monitoring and Business
Assistance Program Guide, developed an annual grantee-monitoring plan, conducted
thirty-two site visits on selected grantees, and provided grant-monitoring training for its
reviewers.

       While these efforts represent good first steps toward an effective award-
monitoring program, weaknesses still exist and there are inconsistencies with its
implementation. For example, the criteria developed for identifying high-risk grantees is
not comprehensive and does not include all potential risk characteristics such as a
history of poor programmatic or financial performance. Further, the program does not
address medium and low-risk awards, for which NSF could implement a lesser degree
of oversight at a minimal cost. Finally, the site visits that are being conducted do not
necessarily follow consistent policies and protocols, are not adequately documented,
and may not be followed-up on by NSF staff to ensure that corrective actions are taken
in response to site visit recommendations.


                    STRATEGIC MANAGEMENT OF HUMAN CAPITAL

       While the previous two management challenges are of an urgent nature, they
may be symptomatic of a larger more pressing need for improved strategic
management of NSF’s human capital. In order to fully address its award management
challenges, NSF will need to devote more resources and attention to making business
and process improvements, while at the same time, planning for its current and future

6
  NATIONAL SCIENCE FOUNDATION, FY 2003 PERFORMANCE AND ACCOUNTABILITY REPORT (Nov. 2003)
<http://www.nsf.gov/pubs/2004/nsf0410/new_pdf/nsf0410final.pdf>.
7
  Auditor’s Report, Fiscal Year 2003 National Science Foundation Financial Statement Audit (Nov. 17,
2003); Auditor’s Report, Fiscal Year 2002 National Science Foundation Financial Statement Audit (Jan.
29, 2003); Auditor’s Report, Fiscal Year 2001 National Science Foundation Financial Statement Audit
(Jan. 18, 2002).


                                                   4
workforce needs. Although advances in technology have enhanced the workforce’s
productivity, NSF’s rapidly increasing workload has forced the agency to become
increasingly dependent on temporary staff and contractors to handle the additional
work. NSF’s efforts in the past to justify an increase in staff have been impeded by the
lack of a comprehensive workforce plan that identifies workforce gaps and outlines
specific actions for addressing them. Without such a plan, NSF cannot determine
whether it has the appropriate number of people and competencies to accomplish its
strategic goals.

       NSF has recognized the seriousness of this challenge and has now identified
investment in human capital and business processes, along with technologies and tools,
as objectives underlying its new Organizational Excellence strategic goal. 8 NSF also
contracted in fiscal year 2002 for a comprehensive, $14.8 million, three to four-year
business analysis, which includes a component that includes a Human Capital
Workforce Plan (HCMP). Preliminary assessments provided by the contractor confirm
that NSF’s current workforce planning activities have been limited and identify that
specific opportunities for NSF exist in this area.

        Currently, the HCMP is a preliminary effort to develop a process for identifying
and managing human capital needs and contains few specific recommendations that
will have a near-term impact. In addition, the HCMP provides little in the way of
milestones and accountability for the accomplishment of these early steps. According
to that project schedule, it will be more than a year before the HCMP will identify the
specific gaps that NSF needs for justifying budget requests for additional staff
resources. I believe NSF faces an urgency with its workforce issues. If not adequately
addressed, these issues will undermine NSF’s efforts to confront its other pressing
management challenges and to achieve its strategic goal of Organizational Excellence.


        Chairman Bond, this concludes my written statement. I would be happy to
answer any additional questions you or other members of the Subcommittee may have,
or to elaborate on any of the issues that I have addressed today.


                                 CONTACT INFORMATION

      For information about this statement, please contact Dr. Christine C. Boesz at
703-292-7100 or cboesz@nsf.gov.



                                                                   (prepared March 5, 2004)



8
 NATIONAL SCIENCE FOUNDATION, STRATEGIC PLAN FY 2003 – FY 2008 (Sept. 30, 2003)
<http://www.nsf.gov/od/gpra/Strategic_Plan/FY2003-2008.pdf>.


                                               5
